uoomm-

«ppeai: zu-oooo

uuc:

rneu: unzo/^uzu

ry: i 01 <£

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-6586

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.

KUNTA KENTA REDD,
Defendant - Appellant.

Appeal from the United States District Court for the Eastern District of North Carolina, at
Wilmington. James C. Dever III, District Judge. (7:08-cr-00043-D-l)
Submitted: July 23, 2020

Decided: July 28, 2020

Before WILKINSON, MOTZ, and RICHARDSON, Circuit Judges.
Affirmed by unpublished per curiam opinion.

Kunta Kenta Redd, Appellant Pro Se. Jennifer P. May-Parker, Assistant United States
Attorney, OFFICE OF THE UNITED STATES ATTORNEY, Raleigh, North Carolina,
for Appellee.

Unpublished opinions are not binding precedent in this circuit.

uoom4

«ppeai: ^u-oooo

uuu: \c

rneu: u/i/c.oi/c.'J/.kj

ry: ^ 01 z

PER CURIAM:
Kunta Kenta Redd appeals the district court’s order denying his motions seeking a
sentence reduction under the First Step Act of 2018 (the act), his motions filed under
various rules, his motion seeking a reduction of sentence under Fed. R. Crim. P. 35(b), and
his motion seeking recusal and reassignment of the case to another district judge. Redd
confines his appeal to the district court’s denial of relief under the act and its denial of his
recusal and reassignment request. We have reviewed the record and find no reversible
error. Accordingly, we affirm for the reasons stated by the district court. United States v.
Redd, No. 7:08-cr-00043-D-l (E.D.N.C. Apr. 3, 2020). We deny Redd’s motions to
appoint counsel and for a certificate of appealability and dispense with oral argument
because the facts and legal contentions are adequately presented in the materials before this
court and argument would not aid the decisional process.
AFFIRMED

2

FILED: July 28, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-6586,

US v. Kunta Redd
7:08-cr-00043-D-1

NOTICE OF JUDGMENT
Judgment was entered on this date in accordance with Fed. R. App. P. 36. Please
be advised of the following time periods:
PETITION FOR WRIT OF CERTIORARI: To be timely, a petition for
certiorari must be filed in the United States Supreme Court within 90 days of this
court's entry of judgment. The time does not run from issuance of the mandate. If a
petition for panel or en banc rehearing is timely filed, the time runs from denial of
that petition. Review on writ of certiorari is not a matter of right, but of judicial
discretion, and will be granted only for compelling reasons.
(www.supremecourt.gov)
VOUCHERS FOR PAYMENT OF APPOINTED OR ASSIGNED
COUNSEL: Vouchers must be submitted within 60 days of entry of judgment or
denial of rehearing, whichever is later. If counsel files a petition for certiorari, the
60-day period runs from filing the certiorari petition. (Loc. R. 46(d)). If payment is
being made from CJA funds, counsel should submit the CJA 20 or CJA 30
Voucher through the CJA eVoucher system. In cases not covered by the Criminal
Justice Act, counsel should submit the Assigned Counsel Voucher to the clerk's
office for payment from the Attorney Admission Fund. An Assigned Counsel
Voucher will be sent to counsel shortly after entry of judgment. Forms and
instructions are also available on the court's web site, www.ca4.uscourts.gov, or
from the clerk's office.
BILL OF COSTS: A party to whom costs are allowable, who desires taxation of
costs, shall file a Bill of Costs within 14 calendar days of entry of judgment.
(FRAP 39, Loc. R. 39(b)).

RECEIVED
SEP -4 2020
•FFICE OF THE OLERK
SUPREME COURT. U.S.

PETITION FOR REHEARING AND PETITION FOR REHEARING EN
BANC: A petition for rehearing must be filed within 14 calendar days after entry
of judgment, except that in civil cases in which the United States or its officer or
agency is a party, the petition must be filed within 45 days after entry of judgment.
A petition for rehearing en banc must be filed within the same time limits and in
the same document as the petition for rehearing and must be clearly identified in
the title. The only grounds for an extension of time to file a petition for rehearing
are the death or serious illness of counsel or a family member (or of a party or
family member in pro se cases) or an extraordinary circumstance wholly beyond
the control of counsel or a party proceeding without counsel.
Each case number to which the petition applies must be listed on the petition and
included in the docket entry to identify the cases to which the petition applies. A
timely filed petition for rehearing or petition for rehearing en banc stays the
mandate and tolls the running of time for filing a petition for writ of certiorari. In
consolidated criminal appeals, the filing of a petition for rehearing does not stay
the mandate as to co-defendants not joining in the petition for rehearing. In
consolidated civil appeals arising from the same civil action, the court's mandate
will issue at the same time in all appeals.
A petition for rehearing must contain an introduction stating that, in counsel's
judgment, one or more of the following situations exist: (1) a material factual or
legal matter was overlooked; (2) a change in the law occurred after submission of
the case and was overlooked; (3) the opinion conflicts with a decision of the U.S.
Supreme Court, this court, or another court of appeals, and the conflict was not
addressed; or (4) the case involves one or more questions of exceptional
importance. A petition for rehearing, with or without a petition for rehearing en
banc, may not exceed 3900 words if prepared by computer and may not exceed 15
pages if handwritten or prepared on a typewriter. Copies are not required unless
requested by the court. (FRAP 35 & 40, Loc. R. 40(c)).
MANDATE: In original proceedings before this court, there is no mandate. Unless
the court shortens or extends the time, in all other cases, the mandate issues 7 days
after the expiration of the time for filing a petition for rehearing. A timely petition
for rehearing, petition for rehearing en banc, or motion to stay the mandate will
stay issuance of the mandate. If the petition or motion is denied, the mandate will
issue 7 days later. A motion to stay the mandate will ordinarily be denied, unless
the motion presents a substantial question or otherwise sets forth good or probable
cause for a stay. (FRAP 41, Loc. R. 41).

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF NORTH CAROLINA
SOUTHERN DIVISION
No. 7:08-CR-43-D
UNTIED STATES OF AMERICA
v.

KUNTAKENTAREDD,
Defendant.

)
)
)
)
)
)
)
)

ORDER

On February 25 and March 18,2019, Kunta Kenta Redd (“Redd”) moved pro se for a sentence
reduction under the First Step Act, Pub. L. No. 115-391, § 404,132 StaL 5194,5222 [D.E. 139,141].
On May 29,2019, Redd (through counsel) moved for a sentence reduction under the First Step Act
[D.E. 151]. On June 12,2019, the United States responded in opposition [D.E. 153]. QnJuly31,2019,
Redd replied [D.E. 155]. As explained below, the court denies Redd’s motions.
L
On August 18, 2008, pursuant to a plea agreement, Redd pleaded guilty to conspiracy to
distribute and possess with intent to distribute 50 grams or more ofcocaine base (crack) and a quantity
of cocaine in violation of 21 U.S.C. §§ 841(a)(1) and 846. See [D.E. 15]. On July 8,2009, the court
held Redd’s sentencing hearing. See [D.E. 34,38]; Sent Tr. [D.E. 47]. At the hearing, the court denied
Redd’s motion to withdraw his guilty plea. See Sent Tr. at 3-13. The court adopted the facts set forth
in the Presentence Investigation Report (“PSR”), except as to matters in dispute in the addendum. Sec
Mi at 13-14; Fed. R. Crim. P. 32(i)(3)(A)~(B). The court received evidence and resolved the
objections. Seg Sent Tr. at 14-58. As part ofthat process, the court found that Redd continued to deal
crack cocaine after pleading guilty and being released on conditions pending his federal sentencing.

Case 7:08-cr-00043-D Document 170 Filed 04/03/20 Page 1 of 5

See id. The court calculated Redd's total offense level to be 36, his criminal history category to be IV,
and his advisory guideline range to be 262 to 327 months. See id. at S&-59. During Redd’s sentencing
hearing, Redd perjured himself. See id. at 62-65.70. After thoroughly considering all relevant factors
under 18 U.S.C. § 3553(a), the court sentenced Redd to 324 months’ imprisonment §gg icL at 68-73.
On June24,2010, the United States Court ofAppeals for the Fourth Circuit affirmed Redd’s conviction
and sentence. Sgg United States v. Redd. 384 F. App’x 279,280-82 (4th Cir. 2010) (per curiam)
(unpublished).
OnMay9,2011,Redd iiledamotion to Vacate under 28 U.S.C. §2255 [D.E. 54]. On January
25,2013, the court dismissed Redd's motion to vacate [D.E. 64]. On April23,2013, the Fourth Circuit
denied a certificate ofappealability. See United States v. Redd. 519 F. App’x 173,173 (4th Cir. 2013)
(per curiam) (unpublished). On October 7,2013, the United States Supreme Court denied certiorari.
See Redd v. United States. 571 U.S. 911 (2013).
On May 15, 2014, Redd moved for a sentence reduction under 18 U.S.C, § 3582(c)(2) and
U.S.S.G. § IB 1.10(c) [D.E. 75]. On August 8, 2014, the court denied the motion [D.E. 76]. On
December 23,2015, the Fourth Circuit affirmed the court’s order. See United States v. Redd. 627 F.
App’x 228,229 (4th Cir. 2015) (per curiam) (unpublished).
On February 25,2016, Redd moved fin a sentence reduction under 18 U.S.C. § 3582(c)(2),
U.S.S.G. § 1B1.10, and Amendment 782 to the Sentencing Guidelines. See [D.E. 91]. On November
11, 2016, the court denied Redd’s motion [D.E. 103]. On November 17, 2017, President Obama
commuted Redd’s sentence to 188 months’ imprisonment [D.E. 113] 2.

n.
On August 3,2010, Congress enacted the Fair Sentencing Act of2010 ("Fair Sentencing Act”),
Pub. L. No. 11-220,124 Stat 2371,2372 (codified as amended at 21 U.S.C. § 801, & gea). Section
2
Case 7:08-cr-00043-D Document 170 Filed 04/03/20 Page 2 of 5

2 of the Fair Sentencing Act reduced statutory penalties by increasing the drug quantities necessary to
trigger certain statutory minimnms and rngximiims. For example, die amount of crack cocaine
necessary to trigger a 5 to 40 year sentence increased from 5 to 28 grams. Likewise, the amount of
' crack cocaine necessary to trigger a 10 year to life sentence increased from 28 grains to 280 grains.
See id, § 2,124 Stat. at 2372.
The First Step Act makes the Fair Sentencing Act’s reductions in mandatory minimum
sentences apply retroactively to defendants who committed their “covered offense” ofconviction before
August 3,2010. Sre First Step Act § 404,132 Stat at 5222. If a defendant qualifies, courts may
consider a motion for a reduced sentence only if the defendant did not previously receive a reduction
pursuant to the Fair Sentencing Act and did not have a motion under the First Step Act denied “after
a complete review of the motion on fee meritsId*, § 404(c), 132 Stat at 5222. “Nothing in this
section,” however, “shall be construed to require a court to reduce any sentence pursuant to this
section.” HU ggg, c.p.. United States v. Gravatt No. 19-6852,2020 WL 1327200, at *2 (4fe Cir. Mar.
23.2020): United States v. Wirsing. 943 F.3d 175,184-86 (4th Cir. 2019); United States v.L

i,No.

1:02CR00011-012,2019 WL 2550327, at * 1-4 (W.D. Va. June 20,2019) (unpublished).
The court has discretion to reduce Redd’s sentence.

Gravatt 2020 WL 1327200, at *2;

Wirsing. 943 F.3d at 184-86; Latten. 2019 WL2550327, at *2-4.1 The court has completely reviewed
fee entire record and all relevant factors under 18 U.S.C. § 3553(a). Redd engaged in serious criminal
conduct and was responsible for possessing with intent to distribute 3.5 kilograms of powder cocaine
and two kilograms of cocaine base (crack). See PSR [D.E. 105]

1-3,5-9. Moreover, Redd has a

deplorable criminal record, including convictions for resisting a public officer, trafficking in cocaine
1 The court rejects the government’s argument that this court lacks discretion under the First
Step Act to reduce a commuted sentence. See First Step Act § 404,132 Stat at 5222.
3
Case 7:08-cr-00043-D Document 170 Filed 04/03/20 Page 3 of 5

(four counts), possession with intent to sell and deliver cocaine (three counts), and selling cocaine (three
counts). So; id. at ^ 11-12. Redd also dealt crack cocaine while on release awaiting sentencing in
this case, and pequred himself at his sentencing hearing. §gg Sent Tr. at 14-70. Although Redd has
taken some positive steps while incarcerated, he sustained a disciplinary infraction in December 2018
for possessing a hazardous tool (i.e., a cellphone). Sre [D.E. 155-1] 2; c£ Pepper v. United States. 562
U.S. 476,480 (2011). Possessing a cellphone in prison is very serious misconduct Cf. United States
v. Melton. 761 F. App’x 171, 173-77 (4th Cir.), cert denied. 140 S. Ct 507 (2019). That Redd
possessed the cellphone in 2018 suggests to this court that Redd will not comply with die law when
he is ultimately released. In light ofRedd’s serious criminal conduct, serious criminal record, criminal
conduct on release in this case, perjury at his sentencing hearing, serious misconduct while
incarcerated, the need to promote respect for the law, and die need to incapacitate Redd, the court
declines to reduce Redd’s sentence under the First Step Act See, e^, Latten. 2019 WL 2550327, at
*4.

Redd also has filed various motions under “Rule 75” [D.E. 149,156,160], “Rule 83.7G” [DJB.
163], and “Rule 83.4” [D.E. 164]. The motions are baseless and are denied.
Redd also seeks a sentence reduction under Rule 35(b) of the Federal Rules of Criminal
Procedure [D.E. 169]. The text ofRule 35(b), however, requires the government to file a motion under
Rule 35. Fed. R. Crim. P. 35(b). The government never filed a Rule 35(b) motion for Redd, and
nothing in the record suggests any impropriety in the government’s failure to do so. Cf, Wade v. United
States. 504 U.S. 181, 186-87 (1992); United States v. Wallace. 22 F.3d 84, 87-88 (4th Cir. 1994).

Thus, the court denies Redd’s Rule 35(b) motion.
Finally, Redd seeks to have the court recuse and reassign this case to anotherjudge [D.E. 168].
The court has reviewed 28 U.S.C. § 455, governing precedent, and the record. See, e.g.. Litekv v.
4
Case 7:08-cr-00043-D Document 170 Filed 04/03/20 Page 4 of 5

United States. 510 U.S. 540,548 (1994); Lilieberp v. Health Servs. Acquisition Corp.. 486 U.S. 847,
858-59 (1988); Beluev.I.eventhal. 640 F.3d 567,572-76 (4thOr. 2011); United States v. Blade. 490
F. Supp, 2d 630,645-68 (E.D.N.C. 2007). No reasonable outside observer, cognizant of all the facts
and circumstances, would reasonably question this court* s ability to fairly, throughly, and impartially
handle Redd’s case. Although Redd is upset about this court’s rulings, litigants cannot use recusal
motions as “a form of a brushback pitch” to “hurl at judges who do not rule in their favor.” Belue. 640
F.3d at 574. This court has based its rulings on the record and governing law. Cf. Litekv. 510 U.S.
at 555; Belue. 640 F.3d at 572-76. Thus, the court denies Redd’s motion to reassign [D.E. 168].

in.
hi sum, the court DENIES Redd’s motions for reduction of sentence [D.E. 139,141,151],
motions under various rules [D.E. 149,156,160,163,164,167,169], and motion to reassign [DJE.
168].
SO ORDERED. This 3 day of April 2020.
j^ES

sU\______

C.DEVERIH
United States District Judge

5
Case 7:08-cr-00043-D Document 170 Filed 04/03/20 Page 5 of 5

